                Office of Inspector General
            U.S. Department of the Interior


                    Semiannual Report
                       to the Congress
Message From the
Inspector General

O I G Initiatives

S i gnif icant
N arrative
S ummaries




April 2009
The Department of the Interior protects many
landscapes where earth and sky come together.
These special places are reminders that all Interior
employees commit themselves to pass these places
on unharmed as a legacy to the next generations. It
is a tall order, and the OIG exists to help safeguard
this legacy of the American people.
                 	   Contents				                    April 2009

Staff            	   About DOI and OIG				                 ii

Editorial
                 	   Message From the
Donald Cairns    	   Inspector General	 			               iii
Scott Culver
Joann Gauzza
Mary Maruca
                 	   OIG Operating Principles		           iv

Photography          OIG Initiatives					                  1
Bryan Brazil
Stock Photos
                     Significant Narrative Summaries	 4
Production       	   Department-wide Issues				           4
                 	   Bureau of Indian Affairs				        12
Mary Maruca      	   Bureau of Indian Education				      18
                 	   Bureau of Land Management			        20
                 	   Bureau of Reclamation				           22
Visit us at:     	   National Park Service				           24
www.doioig.gov   	   Office of Insular Affairs				       28
                 	   U.S. Fish and Wildlife Service			   34
                 	
                 	   Appendices					                      38




                                                                  i
     About DOI and OIG	

         The U.S. Department of the Interior (DOI) is a large, decentralized agency with more than
     67,000 employees and 236,000 volunteers located at approximately 2,400 operating locations across the
     United States, Puerto Rico, U.S. territories, and freely associated states. DOI is responsible for 500 million
     acres of America’s public land, or about one-fifth of the land in the United States, and 56 million acres of In-
     dian Trust lands. DOI also has responsibility for a variety of water and underwater resources, including 479
     dams and 348 reservoirs and approximately 8,526 active oil and gas leases on 44 million acres of the Outer
     Continental Shelf. Approximately 30 percent of the nation’s energy production comes from projects on DOI-
     managed lands and offshore areas. DOI scientists conduct a wide range of research on biology, geology, and
     water to provide land and resource managers with critical information for sound decisionmaking. DOI lands
     also provide outstanding recreational and cultural opportunities to numerous visitors worldwide.

         The Office of Inspector General (OIG) promotes excellence, integrity, and accountability in
     these DOI programs. With fewer than 300 employees, the organization is driven by a keen sense of mission
     and dedicated to providing products and services that impact DOI mission results.

          Images on the following pages remind readers of the diversity of the Department’s stewardship respon-
     sibilities and the high ethical standards to which DOI employees must adhere in conducting the business of
     government in the best interest of the American public.




ii
                                                                                          Back to Toc
                                                                                                                          NT OF TH
                                                                                                               ME                 E
                                                                                                             RT                       I




                                                                                                         A




                                                                                                                                      N
                                                                                                       EP




                                                                                                                                          TE
                                                                                                 U.S. D




                                                                                                                                            RIO
                                                                                                                                             R
      Message from the Inspector General




                                                                                                                                            AL
                                                                                                  OF
                                                                                                       Ag
                                                                                                         en




                                                                                                                                          ER
                                                                                                    FI
                                                                                                             of




                                                                                                           ts
                                                                                                        E       P   osi




                                                                                                       C
                                                                                                                       tive




                                                                                                                                      N
                                                                                                             OF             Ch
                                                                                                                               GE
                                                                                                                        ange
                                                                                                                     INSP
                                                                                                                         ECTOR




    On February 17, 2009, the President signed the American Recovery and Reinvestment Act
(Recovery Act or Act) into law, prompting a flurry of changes within our office. Most noteworthy
was the February 23, 2009, announcement that Inspector General (IG) Earl Devaney would chair
the Recovery, Accountability and Transparency Board, resulting in his leave of absence and my
appointment as Acting Inspector General. Congress appropriated $15 million to us to shepherd
the roughly $3 billion allocated to DOI under the Recovery Act.

     Prior to IG Devaney’s departure, we established the Recovery Oversight Office (ROO) to
ensure effective execution of our three-pronged Recovery Act oversight strategy of prevention,
detection, and reporting. ROO will serve as a separate unit reporting to the IG, and will commit
to the rigorous oversight mandated under the Act. Our approach: dispatch interdisciplinary teams
of auditors, evaluators, investigators, and analysts to deliver technical assistance, review DOI
activities, and provide timely feedback to DOI on a variety of programmatic vulnerabilities and
challenges.

    As IG Devaney transitioned to his new duties, both old and new business drew our attention.
We found that program mismanagement, fraud, theft, and crime in Indian country persist, war-
ranting substantial investigative oversight. Theft of water incentive credits in the West punctuated
how attractive this scarce resource has become, increasing its vulnerability to fraud, theft, and
misappropriation.

    DOI’s energy-related and wildfire suppression programs will likewise garner significant at-
tention. During the upcoming cycle the DOI must reconcile its approach to non-producing oil
and gas leases, venture into new energy sources, and ensure the preparedness and efficacy of its
wildfire suppression workforce. Finally, Insular Areas programs will continue to benefit from our
supervision to ensure that accountability measures are identified and implemented.

    In closing, we hope that the cases summarized in this Semiannual Report reflect our continued
dedication to stewardship and oversight of the public’s lands, buildings, public servants, and re-
sources. As we shift into the unprecedented era of post-Recovery Act accountability and transpar-
ency, we are committed to execute our responsibility to ensure that funds invested in DOI initia-
tives and strategies are used for authorized purposes, and that we aggressively prevent, detect, and
report instances of fraud, waste, and mismanagement.



                                                     Mary
                                                       MaryL.
                                                            L. Kendall
                                                               Kendall
                                                     Acting
                                                       ActingInspector   General
                                                              Inspector General
                                                                                                                                 iii
                                                                              Back to Toc
     OIG Operating Principles

     Mission
        The mission of the OIG is to promote excellence, integrity, and ac-
     countability in the programs, operations, and management of DOI.


     Values
         The OIG operates as an independent oversight organization respon-
     sible to the American people, the Secretary, and the Congress to indepen-
     dently evaluate the operations of the Department of the Interior (DOI).
     Our core values are: Honesty and Integrity, Independence and Relevance,
     Fairness and Objectivity, and Professionalism and Competence.


     Goals
         The goals of the OIG establish the framework to position the agency
     in such a way as to be relevant and respected for its expertise and prod-
     ucts in the rapidly changing world of 21st century America. We continu-
     ously strive to evaluate our efforts to ensure DOI’s accountability and our
     responsiveness to the needs of Congress and the American people. We
     seek to develop and maintain an organization whose ideas and perfor-
     mance results make us a leader in the federal government.


     Responsibilities
          The OIG is responsible for independently and objectively identifying
     risks and vulnerabilities that directly impact, or could impact, DOI’s abil-
     ity to accomplish its mission. We are required to keep the Secretary and
     the Congress fully and currently informed about problems and deficien-
     cies relating to the administration of DOI programs and operations. Ef-
     fective implementation of this mandate addresses the public’s demand for
     greater accountability and integrity in the administration of government
     programs and operations and addresses the demand for programs that
     work better, cost less, and get the results Americans care about most.




iv
Activities
     The OIG accomplishes its mission by conducting audits, inspections,
evaluations, assessments, and investigations relating to DOI programs
and operations. Our activities are tied directly to DOI major responsibili-
ties and are designed to assist DOI in developing solutions for its most
serious management and program challenges, most notably cross-cutting
or DOI-wide issues. These activities are also designed to ensure that we
keep critical issues prominent, thus providing opportunities to influence
key decisionmakers and increase the likelihood that we will achieve
desired outcomes and results that benefit the public.


DOI Management Challenges
     OIG programs help to meet DOI’s Management Challenges: Finan-
cial Management; Information Technology; Health, Safety, and Emergen-
cy Management; Maintenance of Facilities; Responsibility to Indians and
Insular Areas; Resource Protection and Restoration; Revenue Collections;
and Procurement, Contracts, and Grants.




                                                                 Once almost extinct due to
                                                                 overcollection and habitat loss,
                                                                 the American alligator is a
                                                                 conservation success story thanks
                                                                 to federal/state efforts in the
                                                                 southern United States.




                                                                                                     v
                                                                     Back to Toc
Office of Inspector General




          The OIG operates as an independent
          oversight organization responsible to the
          American people, the Secretary, and the
          Congress to independently evaluate the
          operations of DOI.
OIG Trends, Themes, and Initiatives

     The national economic crisis spurred the Congress to enact the
American Recovery and Reinvestment Act of 2009 (Recovery Act), Pub.
L. 111-5, 123 Stat. 115, as a strategic, unprecedented financial invest-
ment to jumpstart the economy. Hoping to create or save three to four
million jobs, the Recovery Act will provide more than $3 billion to DOI
programs designed to stimulate increased economic activity while simul-
taneously repairing water and energy infrastructures, developing alterna-
tive and renewable energy sources, restoring environmental ecosystems,
preserving and protecting national icons and historic landscapes, and
enhancing science and research capabilities. Because DOI is entrusted
with implementation of these initiatives, OIG challenges for the foresee-
able future are enormous. This Semiannual Report touches upon themes
that will require even more scrutiny as stimulus funds begin to flow into
projects and programs.

American Recovery and Reinvestment Act Oversight
     The Recovery Act galvanized us into action to guarantee that the
Act’s expectations for transparency and accountability are realized. As
this Semiannual Report highlights, the newly created Recovery Over-
sight Office (ROO) is focused on preventing fraud, waste, and abuse of
Recovery Act monies; reducing the impact of any misuse when it does
occur; and ensuring transparency in our oversight efforts. This will
occur through ROO activities such as: providing contract, financial as-
sistance, and fraud awareness training to the DOI, bureaus, and private
industry; developing and implementing a suspension and debarment re-
ferral program; using Critical Point Evaluations (CPE) and other stream-
lined reporting mechanisms to identify potential problems in planned or
on-going major projects and activities; and quickly publishing findings
and recommendations by way of recovery advisory notices, recovery
flash reports, best practices reports, and CPE reports.

     In addition, we are dedicating resources to educate both DOI and
contractor personnel concerning the Recovery Act’s special Whistle-
blower Protection provisions (Section 1553). These unique requirements
extend whistleblower protections to contractor employees and mandate
that we investigate their allegations of reprisal and that the Secretary take
action where we find it. They also evidence Congress’ intent to




                                                                                1
    rigorously oversee Recovery Act implementation. Our outreach and edu-
    cational efforts are therefore crucial, since complaining employees can
    sue their employers in federal court if the IG or Secretary fail to act.  

    Royalty and Renewable Energy
         The OIG continues to identify growth opportunities that DOI faces as
    it manages the public’s vast royalty and energy resources. The Bureau of
    Land Management (BLM) manages 258 million surface acres of public
    lands located primarily in the Western United States and Alaska, and 700
    million acres of below-ground minerals located throughout the country.
    On the other hand, the Minerals Management Service (MMS) manages
    oil, natural gas, other mineral resources, and ocean energy on the Outer
    Continental Shelf (OCS). Both BLM and MMS sell federal oil and gas
    leases onshore and offshore respectively. BLM is the lead agency for
    alternative energy activities within the continental United States, while
    MMS is the lead agency for alternative energy activities on the OCS.

        To inform U.S. House of Representatives Chairman Norman Dicks’
    legislative deliberations, we analyzed the degree to which DOI met statu-
    tory and regulatory requirements governing the methodologies it employs
    to monitor and review the production processes on federal oil and gas
    leases. Our evaluation revealed several opportunities for improved man-
    agement of oil and gas leases that may, in turn, inform DOI managers as
    they launch alternative energy programs.

         The vision behind the Recovery Act is to double this nation’s sup-
    ply of renewable energy over the next 3 years, and make an enormous
    investment in basic research funding for new discoveries in energy. DOI
    is committed to explore and execute a myriad of projects such as wind
    energy and offshore wave energy through MMS, as well as geothermal,
    solar, oil shale, and wind energy projects onshore through BLM. As DOI
    moves forward, we anticipate a shift from the oil and gas focus to these
    energy alternatives, with attendant leasing options and processes, inspec-
    tion and enforcement, and data interface concerns. 




2
                                                                            Back to Toc
Spring comes to the White House lawn, where
43 presidents and their families have served the
nation. The house was conceived and the corner-
stone laid in 1792 during George Washington’s
presidency, though he never lived in the mansion.




                                                    3
Department-wide Issues




       History is written in the landscapes,
       architecture, and objects conserved
       by the Department of the Interior.
DOI Fuels Consumption
Data Reported Incorrectly
    Executive Order 13423, Strengthening Federal Environmental,
Energy, and Transportation Management, requires federal agencies
to decrease petroleum fuel consumption by 2 percent annually, while
increasing fleet alternative fuel consumption by 10 percent annually.

     DOI reported that it had exceeded both of these requirements in
fiscal years 2005 through 2007. However, we determined that it had
misreported its fuel consumption in reports to the Department of
Energy, which maintains the Federal Automobile Statistical Tool
(FAST). This misrepresentation occurred due to errors in the fuel
data from DOI bureaus.

    We estimated that the DOI may have increased its consumption
of petroleum-based fuels by as much as 22 percent from fiscal
years 2005 to 2007. Poor data quality also calls into question the
reported 58 percent increase in alternative fuel consumption. As a
result, we could not determine whether or not DOI met its fuel
consumption requirements.

    Because of the number and significance of the errors we
identified, we recommended that DOI should:

u	 Ensure bureau fleet managers perform an in-depth review of
   fiscal year 2005 FAST data for each bureau to make sure it is as
   accurate and reasonable as possible. Fiscal year 2005 is the base
   year for calculating the increases and decreases in fuel consump-
   tion for reporting purposes.

u	 Request the Department of Energy make adjustments in FAST
   based on the results of the detailed analysis.


Oil and Gas Production on
Federal Leases: No Simple Answer
    In the summer of 2008, crude oil prices reached an all-time high,
as did gasoline prices at the pump. During this time, the oil and gas
industry requested that DOI allow leasing in additional federal areas
even though MMS reported that most existing leases were non-
producing. At that time, Congress was considering legislation that




                                                                        5
    would require oil and gas companies to bring their federal leases into
    production before new leases could be acquired. During this con-
    troversy, the chairman of the U.S. House of Representatives’ Sub-
    committee on Interior, Environment, and Related Agencies asked us
    review these non-producing federal leases.

        We found that generally DOI does not monitor production prog-
    ress during the initial term of a lease and has no formal policy to bring
    leases into production. Accordingly, DOI does not know the status of
    the approximately 5,600 offshore and 33,000 onshore leases reported
    to be non-producing.

        We also found that incompatible data tracking systems used by
    BLM and MMS leaves DOI vulnerable to losing millions of dollars
    in oil and gas royalties. In one case, a breakdown of communications
    among the bureaus could have resulted in nearly $6 million in lost
    royalties over a 5-year period, had the company holding the lease not
    voluntarily made the royalty payments.

         Our review determined that many variables affect whether or not
    a lease can be successfully developed. Geologic uncertainties make
    it impossible to guarantee that a lease contains oil and gas in suffi-
    cient quantities to make it commercially viable. Also, because each
    lease is unique, data from currently producing leases cannot be used
    to predict the volume of oil or gas that might be extracted from other
    leases. Overall, although DOI could do more to track the status of
    non-producing leases, it may not be able to promote production. In
    fact, industry and bureau officials cautioned that a mandate to drill on
    all federal leases would not necessarily enhance production and might
    actually reduce industry interest in federal leases.

        We made five recommendations that should help DOI establish
    a production policy, provide direction on lease monitoring activities,
    and improve lease data reporting and reliability.


    Recovery Oversight Office (ROO)
    Reports On Goals and Actions
         Congress provided OIG with $15 million to oversee and ensure
    accountability of the billions of dollars appropriated to DOI through
    the American Recovery and Reinvestment Act (Act). The Act pro-
    vides $1 billion for the Bureau of Reclamation (BOR); $750 million
    for the National Park Service (NPS); $500 million for Bureau of




6
Indian Affairs (BIA); $320 million for BLM; $280 million for the U.S.
Fish and Wildlife Service (FWS); and $140 million for the U.S. Geologi-
cal Survey. It also appropriates an additional $490 million to the Depart-
ment of Transportation (DOT) for DOI road projects, as well as funding
for other federal departments that will consult with DOI on allocation.

     To fulfill our accountability requirements under the Act, we estab-
lished ROO, which ensures effective execution of our three-pronged
strategy of prevention, detection, and reporting. We focus on preventing
fraud, waste, and abuse of recovery and reinvestment dollars; reducing
the effect of such misuse when it does occur; and ensuring transparency
in our oversight efforts. We are blending our interdisciplinary staff of
29 auditors, evaluators, investigators, and analysts into integrated teams,
whose members work side-by-side to deliver technical assistance, review
DOI activities, and provide timely feedback to DOI on a range of topics
to spur action.

░Prevention
    To assist DOI in preventing waste, fraud, abuse, and poor
performance we are:

u	 Delivering technical assistance through education and fraud aware-
   ness training to the DOI, bureaus, and private industry on contract
   and grant fraud and whistleblower protection.

u	 Reviewing and helping to improve the quality of single audit report-
   ing through delivery of technical assistance, performance of quality
   control reviews, and feedback on policy and guidance.

u	 Coordinating with DOI and its bureaus as they plan and develop
   policies and implementation strategies, and providing feedback on
   those policies and strategies.

u	 Developing and sustaining a suspension and debarment referral
   function to improve contract efficiency.

     As of March 31, 2009, we had delivered fraud awareness briefings
to approximately 400 individuals. Recipients of this training include
professionals in procurement-related DOI University courses, procure-
ment analysts in BLM, Bureau of Indian Education (BIE) procurement
officials, and attendees at a BIE conference. We have also delivered
training to the Department on the Federal Audit Clearinghouse (FAC).
We will continue to deliver technical assistance—including fraud
awareness briefings, FAC training, and risk assessment training, target-




                                                                              7
    ing the geographic locations where recovery projects and activities are
    occurring, as well as the offices and entities responsible for
    implementing those activities.

        We are undertaking on-going coordination and communication
    efforts with DOI, and have found DOI officials to be cooperative and
    open to consistent communication. We attend weekly and bi-weekly
    meetings with high-level DOI officials, including the Department
    Recovery Act Coordinator, Acting Assistant Secretary – Policy,
    Management, and Budget, and the Senior Procurement Executive. We
    also attend a weekly Recovery Act Task Force meeting, co-chaired
    by the Recovery Act Coordinator and Assistant Secretary—Policy
    Management, and Budget and various subgroups of that Task Force.
    Finally, we will be serving as a member of the Recovery Act Executive
    Board. DOI has been receptive to feedback provided through these
    various forums.

        We issued 8 recommendations for debarment to the DOI Suspen-
    sion and Debarment Official for action. These referrals will help DOI
    avoid making awards to or entering into contracts with dishonest,
    unethical, or otherwise irresponsible entities or individuals.

    ░Detection
        To reduce the potential for misuse of funds provided under the Act
    as well as to reduce the potential for funds to be used either
    inappropriately or with inadequate results, we are:

    u	 Conducting Critical Point Evaluations (CPE): Critical point
       evaluations are reviews of planned or on-going major projects or
       initiatives to identify potential problems before the results of such
       problems are realized. We will use a range of products to provide
       timely and actionable feedback to DOI, bureaus, and offices.

    u	 Periodically monitoring contracting database for suspicious and
       irregular activity.

    u	 Using the OIG hotline and other sources to help identify
       instances of misuse.

        We have initiated a CPE on DOI and each of the bureaus. These
    CPEs will include reviews of project lists, governance structures and
    internal controls, contract and grant awards, and other high risk and
    relevant areas. For example, we have begun reviewing project
    selection and planned execution for BIA road maintenance and




8
construction projects, an area in which we have identified problems in the
past. We have also reviewed and provided feedback to DOI on all of the
project lists for the bureaus, DOI’s 30-Day Plan to Congress, and other
policies and guidance pertaining to implementation under the Act.

░Reporting
     We will report on what we find and make it publicly available when
appropriate and not legally restricted. Our products will consist primar-
ily of recovery advisory notices, recovery flash reports, best practices
reports, and CPE recovery reports. Our CPE recovery reports will occur
on a semiannual basis and highlight the most significant issues we have
identified in the prior 6 months, as well as any information we have on
actions taken by DOI and the bureaus to address them. We will also
issue recovery referral briefs to other oversight organizations when an
important matter comes to our attention that is beyond the scope of our
authority. We have issued two recovery referral briefs to the Recovery,
Accountability, and Transparency Board.


Verification of Implementation of
Previous BLM Recommendations
    We undertook this information technology (IT) evaluation to assess
BLM’s progress in implementing corrective actions recommended by
the OIG during fiscal year 2007. Based on our evaluation and follow-
up testing, we concurred that 1 recommendation had been resolved, but
disagreed that 14 other recommendations were closed, even though BLM
reported they had been resolved. Our evaluation concluded that 32
recommendations remained open.

    We determined BLM had put forth little effort to implement our
recommendations. For example, BLM took more than a year to formally
contact another federal agency with which they physically share space.
In addition, BLM estimated it would take 2 years to develop supporting
standards and procedures for a policy that allegedly already existed. We
also found that BLM’s assertion that they provided additional access to
their security personnel (one of our recommendations) was inaccurate.

     As a result of our evaluation, we concluded BLM could not ensure
the security of its network or data. Furthermore, we concluded BLM was
in significant non-compliance with federal law, including the Clinger-
Cohen Act of 1996, FISMA, and FIPS, and did not appear, based on their
own responses, to be prepared to come into compliance anytime soon.




                                                                             9
     Verification of Implementation of
     Previous MMS Recommendations
          We undertook this evaluation to assess MMS progress in imple-
     menting IT security corrective actions recommended by the OIG dur-
     ing fiscal year 2007. Based on our evaluation and follow-up testing,
     we concluded 5 recommendations had been closed, while 5 others
     remained open. We disagreed with MMS that end users had been suf-
     ficiently restricted to satisfy our previous recommendations related to
     controlling this vulnerability.

         We found that the typical end user was a power user who retained
     significant access to system utility programs. We successfully pen-
     etrated MMS during our evaluations in 2007 by leveraging these same
     system utility programs. More work needs to be done to restrict end
     users from accessing operating system utilities. Sensitive data on file
     servers also needs to be secured. MMS has made progress in address-
     ing OIG recommendations, but additional work remains.


     Verification of Implementation of
     Previous NBC Recommendations
         The OIG undertook this evaluation to assess the National Business
     Center’s (NBC) progress in implementing IT security corrective
     actions recommended by the OIG during fiscal year 2007. Based
     on our evaluation and follow-up testing, we concurred that 9 recom-
     mendations reported as resolved by NBC were indeed closed, but
     disagreed on 10 others reported closed by NBC. NBC’s response to 3
     recommendations proved inadequate to enable us to determine
     whether or not corrective action had been taken. We concluded that
     39 recommendations remained unresolved and still open. Based on
     the updates provided by NBC, as well as our own testing, we
     concluded that little substantive progress has been made addressing
     many of the recommendations made in 2007.




10
                                                                               Back to Toc
The Three Soliders sculpture by Frederick Hart is
part of the Vietnam Veterans Memorial complex
in Washington, D.C. It is located on the National
Mall, and is one of many icons of national history
overseen by the Department of the Interior.




                                                     11
Bureau of Indian Affairs




       A wooden totem near Ketchikan,
       Alaska, reminds us of the impact of
       the land and its resources on our lives.
Review of IRRP Completed and
Recommendations Made
    The Indian Reservation Roads Program (IRRP) is part of the Federal
Lands Highway Program established to address transportation needs of
Alaskan Native communities by providing funds for planning, designing,
constructing, and reconstructing designated public transportation roads
and facilities. These roads and facilities provide either access to, or
access within Alaskan Native lands, communities, and villages.

    BIA and Federal Highway Administration’s Federal Lands Highway
Office jointly administer the program with funding from annual DOT
appropriations. As most IRRP contracts are administered under the provi-
sions of the Indian Self Determination Act (P.L. 93-638), the Alaskan
Native communities are responsible for the daily administration of those
contracts. However, BIA is tasked with oversight and administration of
the program.

     We found that the Alaska region’s inattention to expenditures and
its failure to manage its program has repeatedly jeopardized the success
of Alaskan Native community roads projects, left the Alaskan Natives
without needed infrastructure, and caused millions of dollars to be unac-
counted for or wasted. For example, the Alaska Regional IRRP Director
told us that while $32 million in program funding was distributed to
approximately 230 Alaskan Native communities each year, only about $3
to $4 million in roads projects had any physical oversight or verification
of work completed.

     This lack of oversight has allowed some Alaskan Native communi-
ties to spend money on activities unrelated to those for which the funds
were awarded. Further, the region’s internal management controls have
completely broken down, enabling wage-grade employees to earn more
than $100,000 in a given year without explanation.

     Our report contained 7 recommendations that, if implemented, should
help correct the deficiencies noted within this specific BIA regional of-
fice. These recommendations for improving internal management, which
would allow BIA to administer the program to the full benefit of the Alas-
kan Native Communities, concur with recommendations previously made
in a Department of Transportation report on the BIA office. Additionally,
we recommended that surplus or stimulus funds be given to this program
only when the necessary changes are made to ensure that those funds are
properly accounted for and managed.




                                                                             13
     Former Casino Employee and Associate
     Sentenced on Conspiracy and Theft
          On January 16, 2009, Kala R. Dennis, a former tribal casino op-
     erations clerk, was sentenced to 46 months incarceration followed by
     3 years supervised release, and ordered to pay $194,999 in restitution.
     Co-defendant Frederick Burrell was sentenced to 5 years’ probation,
     with the first 6 months served in home detention, and ordered to pay
     restitution in the amount of $69,044.

         In November 2004, the National Indian Gaming Commission
     contacted the OIG regarding the theft of $120,000 from a Poarch
     Band of Creek Indians casino, Tallapoosa Entertainment Center,
     located in Montgomery, Alabama. Kala R. Dennis, former Tribal
     casino operations clerk, was convicted in August 2008 in the Middle
     District of Alabama on charges of conspiracy and theft by an Indian
     casino employee.

         Frederick Burrell, who pleaded guilty to the same charges in
     May 2007 after accepting a plea agreement, had originally been re-
     sponsible for the scheme. He first took money from the casino
     and made false entries in casino records to conceal the thefts. After
     succeeding several times, he recruited Dennis to participate. Burrell
     and Dennis stole approximately $128,000. On her own, Dennis
     stole an additional $131,000. She justified to co-workers her amassed
     funds as gambling winnings, passing out hundred-dollar bills and
     purchasing vehicles. Summaries of this case have appeared in
     previous semiannual reporting.



     Former Officials Convicted of Conspiracy
     and Misapplication of Restricted Funds
         On November 20, 2008, Robert Newell, former governor of the
     Passamaquoddy Tribe Indian Township Reservation, and James J.
     Parisi, former finance director also at the Indian Township, were
     convicted by a jury in U.S. District Court in Bangor, Maine.

         Newell was convicted of 29 counts, and Parisi of 11 counts,
     which included conspiring to defraud the United States, intentionally
     misapplying funds of a federal health care benefit program, making
     false statements, and submitting false claims to federal agencies. All




14
charges related to the misuse of restricted funds awarded to the Passama-
quoddy Tribe when Newell was the Township governor between 2003
and 2006 and Parisi the finance director. They await sentencing.


New Mexico Contractor Pleads
Guilty To Stealing Tribal Funds
     On March 11, 2009, Anthony D. Moya pled guilty in U.S. District
Court to embezzlement from the Santo Domingo Pueblo tribe. He admit-
ted to stealing tribal funds while employed as a contract manager work-
ing for Dream Catcher Consulting Corporation, owned by his then-father-
in-law, a New Mexico political consultant and well-known businessman.
At the time, Moya had managed a Phillips 66 gas station upgraded with
$600,000 from a BIA secured loan.

    A federal grand jury indicted Moya in November 2008 on 16 counts
of embezzlement for allegedly stealing $140,000 from the tribe. The
indictment charged that from November 2003 to March 2004, Moya
diverted tribal funds to his own personal use. He paid his American
Express bills, wrote checks to himself, and provided $25,000 to his then-
wife. During the time of the embezzlement, Moya was the vice-president
of Santa Fe Protective Services, a federal contracting firm owned by his
former wife.

    The OIG investigation disclosed that Moya used tribal funds to help
cover Santa Fe Protective Service’s payroll, rent payments, and advertis-
ing expenses, without any clear authorization from the tribe. These find-
ings were not used in the criminal proceedings against Moya, however.

    In his signed plea agreement, Moya admitted to misusing approxi-
mately $312,000 of Santo Domingo funds from 2002 to 2004. Moya
currently owns and operates Omni Development Corporation, a
Santa Fe-based general contracting firm.


Six Tribal Employees Indicted for Theft
    Among ten people indicted on February 4, 2009, by the Federal
Grand Jury were six tribal employees. The jury, convened in Great Falls,
Montana, indicted these individuals for felony violations pertaining to
theft from an Indian Tribal Organization. Among those charged were 2
employees of the Blackfeet Credit Department (BCD) and 4 employees




                                                                            15
     of the Blackfeet Crystal Creek Lodge Treatment Center (LTC). Three
     tribal employees at the center of the fraud scheme (former BCD recep-
     tionist Alex Charles Good Rider, former BCD administrative assistant
     Clarice Ann Hall, and former LTC admissions clerk Bobie Jo Arnoux)
     were also charged with felony violations of conspiracy.

          We conducted our investigation at the request of the Blackfeet
     Tribe of Indians. The ensuing investigation determined that Good
     Rider, Hall, and Arnoux recruited co-workers, friends, and family
     members to participate in their scheme to defraud the Blackfeet Tribe.
     The scheme required recruited nominees to submit a short-term loan
     application to the BCD through Good Rider. Good Rider ensured
     the loan application was processed and approved, following which
     a “loan” check, typically in the amount of $1,500, was issued to the
     nominee. Good Rider and/or Arnoux accompanied the nominee to the
     local bank to negotiate the check into cash. Then Good Rider and/or
     Arnoux divided the money and distributed it to those involved in the
     fraud scheme.

         Good Rider furthered the scheme by destroying loan applica-
     tions, stealing BCD blank checks, and by forging the signature of the
     Blackfeet treasurer onto the checks. Our investigation revealed that
     between January 7, 2008, and May 5, 2008, 46 fraudulent checks
     totaling $62,270 were issued in connection with this scheme.

          The defendants entered not-guilty pleas at their criminal arraign-
     ment the week of March 9, 2009. Trial has been set for May 13, 2009,
     in the U.S. District Court in Great Falls, Montana.




16
                                                                               Back to Toc
Originally of Anishnabe design, dreamcatchers
suggest a way to separate what is positive from
what is not. All that is positive goes easily through
the center of the dreamcatcher. The rest is left
behind.




                                                        17
Bureau of Indian Education




        The natural world and its resources
        give many opportunities for all forms
        of education at every age.
Former Executive Director of Winslow
Residential Hall Indicted for Travel Fraud
    On March 3, 2009, Mike Kee James Sr., former executive director of
Winslow Residential Hall, Inc., in Winslow, Arizona, was indicted by a
federal grand jury in the District of Arizona on one count of embezzlement
from an Indian Tribal Organization.

    Between March 2004 and August 2006, James allegedly took 176 trips
and received $82,053 in travel advances from Winslow Residential Hall. On
74 of the 176 trips, he made false travel claims in the amount of $21,467.

     James allegedly made these claims by charging his corporate credit card
for lodging and other expenses for which he already had received funds in
the form of a travel advance. His corporate credit card was directly billed
to and paid by the Winslow Residential Hall. James also requested and
obtained travel advances for events that overlapped each other. At times, he
received two advances for the same trip. In addition, James received travel
advances for trips he did not take.




                                                                                      19
                                                                        Back to Toc
Bureau of Land Management




          Bureau of Land Management
          administers millions of acres of
          public land that contain natural,
          cultural, and historical resources.
Contractor Indicted for Fraud in Connection
With Bogus Training Certificates
    The OIG initiated a joint investigation in December 2007 with the BLM
Office of Law Enforcement and Security regarding fraud allegedly commit-
ted by private fire contractor David A. Monington, operating as Midwest Fire
Suppression, in Miles City, Montana. Investigators suspected Monington had
submitted false documents to BLM fire contractors in connection with his fire
suppression training and employment qualifications.

     Our investigation revealed 10 forged certificates of training, 9 forged fire
position task books, and 1 forged employee performance rating issued in the
name of David Monington. Monington used these documents to obtain fire
suppression-related employment in supervisory positions for which he was
unqualified (e.g., air tactical group supervisor, strike team leader, and helibase
manager). If he had been successful, he could have created an unsafe and in-
creasingly hazardous work environment for fellow fire fighters. Several South
Dakota and Wyoming state employees, as well as one former U.S. Forest
Service employee, stated that their purported signatures recorded on certificates
of training and position task books issued in Monington’s name were forgeries.

     When interviewed, Monington admitted that 15 of these false documents
contained forged signatures, although he denied that he was responsible for the
forgeries. Monington asserted that he first learned of the forged documents in
December 2006 while employed with the Miles City Fire Department. How-
ever, he continued to issue these documents to prospective employers through
calendar year 2007. The investigation also revealed that Monington submitted
these false documents to the National Wildfire Suppression Association in May
2006 to obtain instructor status, a position he was unqualified to hold and one
that he maintained until December 31, 2006.

     On November 19, 2008, our findings were presented to the Federal Grand
Jury convened in Rapid City, South Dakota. The Grand Jury charged Moning-
ton with two counts of mail fraud and one count of wire fraud. He was arrested
without incident at his residence on November 24, 2008, and transported to the
U. S. District Courthouse in Billings, where he appeared before a U. S. Magis-
trate and, after processing, was released from federal custody.

    Monington subsequently filed a Motion to Suppress statements he made to
law enforcement during his interview on August 13, 2008, in Miles City, Mon-
tana. This hearing will occur in late April 2009. No trial date has been set.




                                                                                        21
                                                                          Back to Toc
Bureau of Reclamation




        O’Shaughnessy Dam and, behind it,
        the Hetch Hetchy Reservoir supply
        hydroelectric power for San
        Francisco and surrounding
        California counties.
        Photo by Bryan Brazil.
Senior Managers Indicted
For Scheme To Steal Water
    On December 3, 2008, the Truckee-Carson Irrigation District (TCID), along
with managers Dave Overvold, Lyman McConnell, Shelby Cecil (former Water
Master, now deceased), and John Baker (also a former Water Master) were
indicted by a federal grand jury in the U.S. District Court, District of Nevada,
on 10 counts for document falsification, false claims, conspiracy to defraud, and
false statements.

     A service contract with BOR made the irrigation district responsible for
distributing and managing water from the Carson and Truckee Rivers. The
water went to users participating in the “Newlands Project.” TCID’s water
distribution obligations, including limitations imposed on water diversion from
the Truckee River, are defined in the Operating Criteria and Procedures (OCAP)
document, revised in 1988 to include an “efficiency incentive provision” that
allowed the managers to manipulate the procedures document and steal water.

     The pertinent portion of this document states, “In any given year that
TCID’s actual water efficiency rate exceeds the target efficiency rate for the ac-
tual head-gate water delivery, two-thirds of the resultant savings, in water, will
be awarded to TCID by BOR as storage in the Lahontan Reservoir. This storage
amount will remain in the Lahontan Reservoir as water available to TCID to be
used at TCID’s own discretion.”

    The indictment alleges that during the years 2000 to 2005, TCID managers
directed its employees to “write-off” water, which included the manipulation of
water meters—falsifying the delivery records to improve TCID efficiency rate
calculations conducted by BOR at the end of each water cycle season. TCID
submitted these records to BOR for each of the irrigation years 2000 through
2005 so that BOR could determine whether or not TCID had met the OCAP
target efficiency rate for that year and had earned any water incentive credits.
TCID was awarded 40,150 water incentive credits for each of those years.

    TCID planned to obtain these incentive credits in the form of thousands of
acre-feet of water by submitting materially false numbers that allowed them pur-
portedly to met the target efficiency rate set by OCAP, and thus trigger the BOR
incentive credits. TCID considered this recoupment payments, following a civil
lawsuit filed by the Department of Justice and the Pyramid Lake Paiute Tribe
against TCID seeking repayment of approximately 1,057,000 acre-feet illegally
diverted by TCID from the Truckee River to the Newlands Project.

    Trial date has been set for February 2010.




                                                                                         23
                                                                           Back to Toc
National Park Service




    Grand Canyon National Park, a World
    Heritage Site, protects more than two
    billion years of Earth’s geological
    history. This year, the site celebrates
    its 90th anniversary as a national park.
Contractors Plead Guilty
to False Certifications
    As previously reported in the October 2007 Semiannual Report to
Congress, a federal grand jury in Phoenix, Arizona, returned a 29-count
indictment against Ernest Robert McFarland, 66, of Fort Meyers, Florida,
and a 23-count idictment against Wayne George Heidle, 53, of La Habra,
California, for conspiracy, false claims, mail fraud, and false statements.
McFarland was the owner and president of Pacific General, Inc., and
Heidle the vice president. The investigation that uncovered evidence
supporting the indictment was initiated in 2004, and conducted jointly
with the FBI.

     On April 21, 2008, McFarland pleaded guilty to 6 counts of mak-
ing false statements. In his plea agreement, he admitted to knowingly
submitting progress payment certification forms to the Grand Canyon
National Park, in which he falsely stated that he had used government
funds to pay company subcontractors for National Park Service (NPS)
projects. On August 11, 2008, McFarland was fined $5,000, sentenced to
5 years of probation, 4 months of home confinement, and ordered to pay
restitution to the NPS in the amount of approximately $435,297.

     On January 28, 2008, Heidle pleaded guilty to information charging
him with one count in violation of Title 18 USC, Section 4 (misprision of
a felony). In his plea agreement, Heidle admitted that he knew and con-
cealed the fact that McFarland submitted false progress payment certifi-
cation forms so as to receive contract payments. On May 5, 2008, Heidle
was sentenced to 5 years of probation and ordered to pay approximately
$69,730 in restitution to the NPS.

     A stipulated civil judgment in the amount of $1.5 million is pending.
McFarland will be required to submit annual financial status reports so
that the U.S. Attorney’s Office can determine his ability to pay the $1.5
million stipulated civil judgment.


Superintendent Given Letter of Reprimand
After Conflict of Interest Uncovered
    After a confidential source alleged a possible conflict of interest over
a real estate transaction between a park superintendent and a park conces-
sioner, the OIG investigated the case. We determined that the superin-
tendent bought a parcel of land in 1992 for $84,000, sold it in December
2002 for $425,000, and financed the sale of the property to a concession-
er over the course of 63 months.




                                                                               25
          Based on the appearance of a conflict-of-interest, we reviewed documents
     submitted by the superintendent. This review determined that he made false
     statements or concealed material facts on his Office of Government Ethics
     form 450, as well as in an e-mail he sent to the NPS reviewing official who had
     requested additional information concerning the nature of the transaction. The
     superintendent also signed the conflict of interest certification for the contract
     process, further complicating his position.

         Our findings were presented to the local U.S. Attorney’s Office, which de-
     clined to prosecute the NPS employee because his case did not meet its criminal
     threshold. Our office was notified in March 2009 that the superintendent had
     been transferred to another national park and given a Letter of Reprimand.


     Former Law Enforcement
     Officer Pleads Guilty To Theft
         The OIG initiated an investigation upon receipt of a complaint that a U.S.
     Park Police Sako rifle reported stolen several years ago, had been located by the
     Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF) at a pawn shop in
     Georgia. The pawn shop records indicated that Dane Henry, a retired NPS law
     enforcement officer had pawned the rifle.

          Our investigation determined that during Henry’s tenure at the Federal Law
     Enforcement Training Center, he stole a Sako rifle, a Browning rifle, and fifteen
     Sig Sauer ammunition magazines. On March 2, 2009, Henry pled guilty to theft
     and was sentenced to 30 days of home confinement, 2 years of probation, and a
     fine of $750.




26
                                                                               Back to Toc
Two bighorn sheep pecked into red rock at
Monument Valley within the Navajo Reservation.
Petroglyphs such as these are protected in such
national park areas as Petroglyph National
Monument in New Mexico.




                                                  27
Office of Insular Affairs




      The Insular Islands were a chain of
      volcanic islands that collided and
      fused millions of years ago. They
      offer microclimates for many
      life forms.
U.S. Virgin Islands Workers’
Compensation Benefits at Risk
     Can the Virgin Island (VI) government continue to guarantee benefits
to injured workers using the Workers’ Compensation Program? The OIG
conducted this audit to find out whether or not the government adequately
safeguarded workers’ compensation funds and ensured that all employers met
filing and payment requirements.

     The Workers’ Compensation Program provides income and medical ben-
efits to all VI employees injured on the job. It is administered by the Division
of Workers’ Compensation Administration (WCA) of the VI Department of
Labor. WCA employees receive and evaluate workers’ compensation claims
and authorize benefit payments to qualified employees. During the past 4
years, WCA processed approximately 23,300 orders, totaling $28 million paid
to injured workers.

    The VI Department of Finance (Finance) Office of the Custodian of
the Government Insurance Fund (GIF) pays authorized claims and provides
funds to administer the program. To meet its responsibilities, GIF collects
annual premiums from all VI employers who have full-time employees.
During the past 4 years, GIF reported collections of more than $32 million,
and issued approximately 11,300 certificates of government insurance.
A certificate serves as an employer’s proof of a workers’ compensation
insurance coverage.

    In the future, however, the program may be unable to meet the needs of
injured workers, especially in the event of a major job-related catastrophe at
one of VI’s primary employers—the Water and Power Authority or the fire
department for example.

    From 2004 to 2007, the fund experienced losses of approximately $10.6
million due to improper use and poor management. In addition, shortfalls
occurred due to outdated rates, inaccuracies in individual premium rates, and
uncollected premiums. This, plus an antiquated, manual system of collection
for premiums and claims processing contributes to the overall vulnerability of
the fund.

    The Governor of the Virgin Islands concurred with the recommendations
made by the OIG in its report and has initiated steps necessary to correct the
deficiencies. These steps include disallowing unrelated payments from the
Workers’ Compensation Fund and ensuring that all money owed to the fund is
collected.




                                                                                   29
     Evidence Integrity Is at Risk
     At VI Police Department
          Headed by a commissioner, the Virgin Islands Police Department
     is divided into two districts: the St. Thomas/St. John/Water Island
     District and the St. Croix District. The commissioner asked the OIG
     to conduct a review of police department evidence rooms and firearms
     storage areas.

          In the face of rising crime, VI citizens deserve the sense of securi-
     ty that stems from efficient handling of evidence. The success or fail-
     ure of any criminal investigation and subsequent prosecution depends
     upon the availability of properly handled and maintained evidence.

          However, the Police Department fails to meet this standard. Its in-
     ability to address long-standing deficiencies in maintaining the integ-
     rity of criminal evidence has been perpetuated for nearly two decades.
     Evidence is often difficult to locate due to a poor inventory system. At
     times, it goes completely unaccounted for.

          Evidence room overcrowding and disorganization is compounded
     by the lack of an appropriate disposal system. Improper storage prac-
     tices, including the use of an abandoned building to house evidence for
     active cases, have led to the damage, contamination, and destruction of
     critical evidence.

          The security of evidence also has been compromised due to unre-
     stricted access to evidence rooms and an overall lack of physical secu-
     rity measures. Similar issues related to inventory, storage, and security
     also exist within the Firearms Bureau.

         These conditions have been documented in two previous OIG
     reports. However, earlier recommendations for corrective actions have
     been ignored. In 1994 these same issues were addressed in a series of
     Pulitzer Prize-winning news articles published by the Virgin Islands
     Daily News. Without immediate and radical change, these problems
     will continue into the foreseeable future.




30
Serious Problems Identified
With Guam Tax Collections
     Our evaluation of the Government of Guam’s (Guam) tax collection
activities identified serious problems at the Department of Revenue and
Taxation (DRT), as well as significant challenges that Guam must meet
to significantly improve the effectiveness of its tax collection efforts. We
estimated that persistent deficiencies in Guam’s tax collection process
result in lost tax revenues of at least $23.5 million annually.

    In responding to our report, the Governor committed to resolving
resource constraints outlined in our report and revitalizing Guam’s tax
collection and enforcement efforts. However, given Guam’s lack of
success in dealing with these challenges in the past and its current dire
financial situation, we concluded that the Office of Insular Affairs’ (OIA)
active involvement and assistance will be required to achieve significant
and lasting improvements.

    OIA is charged with carrying out DOI’s responsibilities to coordinate
federal policy in the U.S.-affiliated insular areas, which includes Guam.
According to OIA’s fiscal year 2009 budget justification, OIA will
achieve its mission by, among other things, “increasing Federal respon-
siveness to the unique needs of island communities.”

    We found that while OIA had provided Guam with financial assis-
tance targeted at improving tax collection operations, the funding did
not enhance DRT’s operations. In fact, we were told that several DRT
revenue agents quit the agency to accept higher paying jobs in the private
sector after they received training paid for with OIA monies.

     In keeping with OIA’s mandate, and in recognition of the fact that
funding alone does not ensure change, we recommended that OIA di-
rectly participate with the Governor in developing and implementing an
action plan to revitalize DRT. OIA generally concurred with our recom-
mendations but took what we considered a “business-as-usual” approach
to the problem. Moreover, the response failed to provide details about
the specific actions OIA planned to take to provide “direct involvement
in improving tax collection activities.” Given OIA’s responses to the
report, we considered the recommendations both unresolved and unim-
plemented, and have requested that OIA provide additional information
to demonstrate its commitment to help Guam finally address its long-
standing tax collection deficiencies.




                                                                               31
     Recommendations Made to Improve
     Department of Revenue and Taxation
         DRT enforces the income and general tax laws of the Territory of
     Guam, and collects income taxes, business privilege taxes, and prop-
     erty taxes, as well as revenues from other sources. In fiscal year 2006,
     Guam’s revenues totaled about $683 million, of which approximately
     $417 million came from taxes and fees.

         Our evaluation found, however, that DRT’s efforts to assess and
     collect taxes are deficient, and that they result in annual revenue losses
     of at least $23.5 million annually. The reasons for this deficiency arise
     from DRT’s lack of adequate funding and staff, inability to hire and
     retain qualified tax enforcement officers, an ever-increasing workload,
     and reliance on manual processes and outdated equipment.

          As a result of these constraints, DRT did not promptly process tax
     information, perform complex corporate audits, or attempt to identify
     businesses and individuals that failed to file tax returns. In addition,
     tax liabilities were not collected in a fair and expeditious manner, and
     criminal prosecutions of tax law violations were non-existent.

          Worse yet, we found that these tax collection problems are not
     new. OIG reports dating back to 1989 included recommendations to
     correct the shortcomings in Guam’s tax collection efforts. Despite the
     fact that many of our recommendations during these years addressed
     the need to provide DRT with additional resources or to help the de-
     partment make better use of existing resources, our current evaluation
     found that Guam has actually reduced DRT’s staff and funding during
     the last 10 years.

         We made two recommendations to begin the process of revital-
     izing DRT and restoring an effective and robust tax collection process.
     The Governor of Guam concurred with our recommendations and
     identified actions he would take to address our concerns. Based on
     the Governor’s response, we consider the recommendations resolved.
     However, implementing corrective actions and repairing the damage
     done to Guam’s tax collection apparatus by 20 years of neglect will
     undoubtedly prove to be a long and difficult task.




32
Continued Oversight and Capacity
Building is Needed in Insular Areas
    The OIG continues to provide significant oversight of federal fund-
ing provided to and managed by insular areas governments.

u    Compact Sector Funding: The Federated States of Micronesia,
    the Republic of the Marshall Islands, and the Republic of Palau
    receive significant Compact annual funding, as well as other federal
    grant funding. Reviews of the governments’ management control
    systems and program activities have regularly identified control,
    compliance, and accountability weaknesses. Special focus needs to
    continue for cash management and for financial and project account-
    ability activities.

u    American Recovery and Reinvestment Act: As federal agencies
    implement the Recovery Act, significant federal funding will be
    provided to certain insular area governments for, but not limited to,
    infrastructure improvements (roads, watershed flood control projects,
    etc.) public transit, education, public safety, and workforce invest-
    ment. To ensure the high level of accountability and transparency
    envisioned in the Recovery Act, the OIG has established an office
    whose primary mission is the oversight of Recovery Act funds.

     In addition, the OIG continues with its outreach capacity building ac-
tivities, providing regular training to Insular Areas Public Auditor inves-
tigative and audit staff in the areas of detecting and investigating contract
and procurement fraud. We hope that the OIG’s continued commitment
to provide improved training opportunities to insular area governments
personnel will remedy some control, compliance, and accountability
problems in this U.S.-funded program.




                                                                                         33
                                                                           Back to Toc
U.S. Fish and Wildlife Service




            Coho salmon once were abundant in
            fresh water streams throughout the
            Pacific Northwest. FWS biologists are
            working with partners to restore
            fish populations.
Bird Survey Aircraft Need
To Be Removed From Service
    For more than a decade, the National Business Center Aviation Management
Directorate (NBC-AMD) has granted waivers for eight FWS Division of Migra-
tory Birds aircraft to be flown over maximum takeoff gross weight in excess
of FAA regulations and manufacturer specifications. NBC-AMD originally
granted waivers because:

u	 the missions were flown in remote areas of the Continental United States,
   Alaska, Canada, and Mexico, where airports, fuel, and weather reporting
   stations are limited, and

u	 at the time, no aircraft in production could meet the combination of load
   carrying capacity and endurance needed to safely fly missions in those envi-
   ronments, though this no longer holds true.

    Although FAA rules do not apply to federal agencies, DOI has taken some
actions to mitigate the risks associated with exceeding the FAA maximum take-
off weight. For example, FWS has a contract to provide 5 to 8 new aircraft to
replace those flying over maximum gross takeoff weight.

     Despite this plan, our evaluation found no definitive delivery timetable for
the new aircraft. Also, safety concerns exist for those aircraft being replaced
that are over maximum takeoff gross weight. The OIG recommended immedi-
ately halting the use of these aircraft and their subsequent removal from service.


Conspiracy Indictment Involves Contract Fraud
     On March 24, 2009, FWS employee Kevyn Paik and his business partner,
James Duarte, a former FWS employee, were indicted by a federal grand jury
in the U.S. District Court for the District of Hawaii on 10 counts of wire fraud,
mail fraud, and participation in a matter affecting an executive branch
employee’s interest.

    The investigation of a “straw” subcontracting scheme associated with a
federal contract on the Island of Kauai resulted in the indictment, which alleges
the employee conspired with his business partner to financially benefit from an
agency contract with Ducks Unlimited.

   Ducks Unlimited obtained a $650,000 contract for pond restoration work in
2001. As part of the restoration project, it subcontracted earthwork for Hanalei




                                                                                     35
     Refuge Pond “C” to Anini Landscaping, LLC, owned by the FWS
     employee, who worked through a business partner to arrange a part-
     nership and purchase an earth moving machine.

         To obtain the subcontract, the business partner recruited two
     “straw” subcontractors through whom Ducks Unlimited could work.
     These “straw subcontractors could then hire the business partner to
     perform the Pond “C” earthwork himself, using the FWS employee’s
     equipment. The “straw” subcontractors received contract payments
     from Ducks Unlimited and passed the majority of the contract pro-
     ceeds on to the business partner, who, in turn, passed substantial con-
     tractual dollars on to the FWS employee in the form of cash.


     Former Special Agent Convicted
     For Obstructing Justice and
     Possessing Stolen Firearms
          The OIG initiated this investigation based upon a complaint made
     by an assistant U. S. attorney (AUSA) in Abingdon, VA. The AUSA
     reported that former FWS Special Agent Kelly Holland may have sto-
     len evidence that pertained to a federal/state investigation. Addition-
     ally, the AUSA reported that the agent provided false statements to his
     former supervisor as well as during his Grand Jury testimony.

        On February 4, 2009, former FWS Special Agent Holland was
     convicted of obstructing justice and possessing a stolen firearm.
     Sentencing is scheduled for May 13, 2009.




36
                                                                               Back to Toc
Photo BBrazil.




                 37
Appendices
                                                                                                                                     Appendix One




STATISTICAL HIGHLIGHTS
Investigative Activities
Cases Closed............................................................................................................................. 224
Cases Opened........................................................................................................................... 248
Hotline Complaints/Inquiries Received................................................................................... 109

Criminal Prosecution Activities
Indictments/Informations............................................................................................................28
Convictions....................................................................................................................................11
Sentencings..................................................................................................................................12
     - Jail........................................................................................................................... 76 months
     - Criminal Penalities.................................................................................................. $479,153
     - Probation .............................................................................................................301 months
     - Community Service.................................................................................................330 hours
Criminal Matters Referred for Prosecution.................................................................................32
Criminal Matters Declined This Period.......................................................................................17

Civil Investigative Activities
Civil Referrals.................................................................................................................................4
Civil Declinations............................................................................................................................1
Civil Settlement............................................................................................................... $273,000

Administrative Investigative Activities
Removals........................................................................................................................................2
Downgrades....................................................................................................................................3
Resignations/Retirements............................................................................................................5
Suspensions.................................................................................................................. 8 (63 days)
Reprimands/Counseling..............................................................................................................17
Reassignments/Transfers.............................................................................................................5
General Policy Actions.................................................................................................................25
Administrative Recoveries...................................................................................................$8,515
Contracts Terminated....................................................................................................................1
Bureau Non-Responsive*..............................................................................................................1

* Bureau Non-Responsive is a category indicating failure by a bureau to respond to referral for administrative
action.
                                                                                                                                                    39
     Appendix One




       STATISTICAL HIGHLIGHTS
       Audit and Evaluation Related Activities
        Reports Issued........................................................................................................................33

        	    Performance Audits, Financial Audits, Evaluations, Inspections, and Verifications.....26
        	    Grant Audits.........................................................................................................................7




        Audit and Evaluation Impacts
        Total Monetary Impacts....................................................................................... $34,883,918
        	    Questioned Costs (includes unsupported costs)............................................$2,327,396
        	    Recommendations That Funds Be Put to Better Use.......................................... $66,522
        	    Lost or Potential Additional Revenues.......................................................... $32,490,000



        Audit and Evaluation Recommendations Made................................................................. 305

        Audit and Evaluation Recommendations Resolved..............................................................65




40
                                                                                                                            Back to Toc
Appendix One




           41
 Appendix Two




                Reports Issued During the
                Six-Month Reporting Period
                This listing includes all reports issued during the 6-month period that ended March 31,
                2009. It provides report number, title, issue date, and monetary amounts identified in
                each report (* Funds To Be Put To Better Use, ** Questioned Cost, *** Unsupported
                Cost, **** Lost or Potential Additional Revenues, and *****Wasted Funds).


                Audits, Inspections, Evaluations, and Verifications
                Bureau of Indian Affairs
                X-IN-BIA-0013-2008	             Independent Auditors’ Report on Indian Affairs
                                                Financial Statements for Fiscal Years 2008 and 2007
                                                (2/4/2009).	

                WR-IV-BIA-0001-2009	            BIA Alaska Regional Indian Reservation Roads Pro-
                                                gram Rife with Mismanagement and Lacking Program
                                                Oversight (2/9/2009).

                X-IN-BIA-0005-2009	             Management Letter Concerning Issues Identified Dur-
                                                ing the Audit of the Indian Affairs Financial State-
                                                ments for Fiscal Years 2008 and 2007 (3/9/2009).

                Bureau of Reclamation
                ER-RR-BOR-0002-2008	            Program Assessment Rating Tool Progress Evaluation:
                                                Bureau of Reclamation Rural Water Supply Projects
                                                (2/9/2009).

                X-IN-BOR-0015-2008	             Independent Auditors’ Report on the Bureau of
                                                Reclamation’s Financial Statements for Fiscal Years
                                                2008 and 2007 (2/18/2009).	

                X-IN-BOR-0007-2009	             Management Letter Concerning Issues Identified
                                                During the Audit of the Bureau of Reclamation
                                                Financial Statements for Fiscal Years 2008 and 2007
                                                (3/23/2009).	

                Departmental Offices




42
                                                                             Appendix Two




WR-EV-OSS-0005-2008	    Flash Report - Department of the Interior:
                        Risking People and Property by Flying Airplanes
                        in Excess of Federal Aviation Administration and
                        Manufacturer Specifications (2/9/2009).
            .
Multi-Office Audits
C-IS-MOI-0008-2008	     DOI Fuels Consumption Data is Incorrectly Re-
                        ported (11/4/2008).	

X-IN-MOA-0011-2008	     Independent Auditors’ Report on the Department
                        of the Interior Financial Statements for Fiscal
                        Years 2008 and 2007 (11/15/2008).

ER-EV-MOA-0001-2008	    Observations and Suggestions on DOI’s Charge
                        Card Transition (2/9/2009).		

X-IN-MOA-0003-2009	     Management Letter Concerning Issues Identified
                        During the Audit of the Department of the Interior
                        Financial Statement for Fiscal Years 2008 and
                        2007 (2/19/2009).	

C-EV-MOA-0009-2008	     Evaluation Report on Oil and Gas Production on
                        Federal Leases: No Simple Answer (2/27/2009).	

X-VS-MOA-0009-2009	     Verification Review of Seven Recommenda-
                        tions Considered Implemented from our August
                        2005 Audit Report, “U.S. Department of the
                        Interior Hazardous Materials Site Management”
                        (2/27/2009).

National Park Service
B-EV-NPS-0015-2008	     DC Water and Sewer Payment - 4th Quarter 2008
                        (10/29/2008).

X-IN-NPS-0014-2008	     Independent Auditors’ Report on the National
                        Park Service Financial Statements for Fiscal Years
                        2008 and 2007 (1/6/2009).

B-EV-NPS-0003-2009	     DC Water and Sewer Payment - 1st Quarter 2009
                        (2/4/2009).

X-IN-NPS-0006-2009	     Management Letter Concerning Issues Identified
                        During the Audit of the National Park Service
                        Financial Statements for Fiscal Years 2008 and
                        2007 (2/18/2009).		




                                                                                        43
 Appendix Two




                Office of Insular Affairs
                VI-IS-VIS-0004-2008	        Evaluation Report on Verification of Jewelry Quota
                                            Data for Calendar Year 2008 Submitted by Leach
                                            and Garner Jewelry Company in the U.S. Virgin
                                            Islands (10/3/2008).

                P-EV-GUA-0002-2008	         Tax Collection Activities, Government of Guam,
                                            Revitalized Tax Collection and Enforcement Effort
                                            Needed (11/26/2008) ****$23,500,000.	

                HI-EV-GUA-0002-2008	        Guam’s Tax Collection Activities: Office of Insular
                                            Affairs Involvement Needed to Achieve Lasting
                                            Improvements (11/28/2008).

                V-IN-VIS-0003-2007	         U.S. Virgin Islands Workers’ Compensation
                                            Benefits at Risk (11/28/2008) ** $1,630,000
                                            **** $8,990,000.

                VI-IS-VIS-0002-2008	        Final Evaluation Report Virgin Islands Police
                                            Department Evidence Integrity at Risk (3/30/2009).

                Office of the Special Trustee
                Q-IN-OST-0002-2008	         Independent Auditors’ Report on the Individual
                                            Indian Monies Trust Funds Financial Statements for
                                            Fiscal Years 2008 and 2007 (11/18/2008).	

                Q-IN-OST-0003-2008	         Management Letter Concerning Issues Identified
                                            During the Audit of the Office of the Special
                                            Trustee for American Indians Individual Indian
                                            Monies (IIM), and Tribal and Other Trust Funds
                                            Financial Statements for Fiscal Years 2008 and
                                            2007 (11/18/2008).

                Q-IN-OST-0004-2008	         Independent Auditors’ Report on the Tribal and
                                            Other Trust Funds Financial Statements for Fiscal
                                            Years 2008 and 2007 (11/18/2008).

                U.S. Fish and Wildlife Service
                B-EV-FWS-0013-2008	         Management Advisory - Clarification Needed on
                                            Disposal of Equipment Acquired With Grant Funds
                                            (11/3/2008).




44
                                                                           Appendix Two




Grant Audits
U.S. Fish and Wildlife Service
R-GR-FWS-0003-2008	      U.S. Fish and Wildlife Service Wildlife and
                         Sport Fish Restoration Program Grants Awarded
                         to the State of Ohio, Department of Natural
                         Resources, Division of Wildlife, From
                         July 1, 2005, Through June 30, 2007
                         (10/16/2008).

R-GR-FWS-0008-2008	      U.S. Fish and Wildlife Service Sport Fish
                         Restoration Program Grants Awarded to the State
                         of North Carolina, Division of Marine
                         Fisheries, From July 1, 2005, Through
                         June 30, 2007 (11/21/2008).

R-GR-FWS-0007-2008	      U.S. Fish and Wildlife Service Wildlife and
                         Sport Fish Restoration Program Grants Awarded
                         to the State of North Carolina, Wildlife
                         Resources Commission, From July 1, 2005,
                         Through June 30, 2007 (12/1/2008).

R-GR-FWS-0006-2008	      Audit on U.S. Fish and Wildlife Service Wild-
                         life and Sport Fish Restoration Program Grants
                         Awarded to the State of Idaho, Department of
                         Fish and Game, From July 1, 2005, Through
                         June 30, 2007 (1/26/2009) *$43,312 **
                         $357,431 ***$79,642.

R-GR-FWS-0010-2008	      U.S. Fish and Wildlife Service Wildlife and
                         Sport Fish Restoration Program Grants Awarded
                         to the State of Oregon, Department of Fish and
                         Wildlife, From July 1, 2005, Through June 30,
                         2007 (2/26/2009) *$23,210 **$61,859.

R-GR-FWS-0003-2009	      U.S. Fish and Wildlife Service Wildlife and
                         Sport Fish Restoration Program Grants Awarded
                         to the Commonwealth of Pennsylvania, Fish and
                         Boat Commission, From July 1, 2006, Through
                         June 30, 2008 (3/3/2009).

R-GR-FWS-0011-2008	      U.S. Fish and Wildlife Service Wildlife and
                         Sport Fish Restoration Program Grants Awarded
                         to the State of New Mexico, Department of
                         Game and Fish, From July 1, 2005, Through
                         June 30, 2007 (3/10/2009) **$198,464.

                                                                                      45
                                                               Back to Toc
 Appendix Three




     Monetary Impact of Audit and Evaluation
     Activities During the Reporting Period

     Activity	 	 Questioned Costs*	 Funds To Be Put 	                    Potential	             Total
     			                             To Better Use	                      Additional	
     				                                                                Revenue
     Insular
     Affairs	 	           $1,630,000	                           0	      $32,490,000	     $34,120,000


     U.S. Fish
     and Wildlife
     Service	               $697,396	                        $66,522	        0	            $763,918


     Total	               $2,327,396	                        $66,522	   $32,490,000	     $34,883,918




      *Unsupported costs are included in questioned costs.




46
                                                                                  Back to Toc
                                                                            Appendix Four




Non-Federal Funding Included in
Monetary Impact of Audit and
Evaluation Activities During the
Reporting Period
P-EV-GUA-0002-2008	   Tax Collection Activities, Government of Guam,
                      Revitalized Tax Collection and Enforcement
                      Effort Needed, dated November 26, 2008. The
                      report identified $23,500,000 of lost or potential
                      additional revenues. All of the funds were
                      Insular funds.

V-IN-VIS-0003-2007	   U.S. Virgin Islands Workers’ Compensation
                      Benefits at Risk, dated November 28, 2008. The
                      report identified $1,630,000 questioned costs
                      and $8,990,000 of lost or potential additional
                      revenues. All of the funds were Insular funds.




                                             One of Yellowstone National Park’s small azure
                                             blue lakes.




                                                                                              47
                                                                 Back to Toc
 Appendix Five




     Monetary Resolution Activities
     Table I: Inspector General Reports With Questioned Costs*


     		                                             Number of Reports	   Questioned Costs	   Unsupported Costs


     A.	   For which no management
     	     decision had been made by the
     	     commencement of the reporting
     	     period.	                                         36	           $15,011,564	          $5,269,213

     B.	 Which were issued during the
     	 reporting period.	                                    3	              $697,396	             $79,642

     		       Total (A+B)	                                  39	           $15,708,960	          $5,348,855

     C.	 For which a management decision
     	 was made during the reporting
     	 period. 	                                             4	              $441,118	              $4,634

     		       (i) Dollar value of
     		       recommendations that
     		       were agreed to by
     		       management. 	                                  4	              $441,118	              $4,634

     		       (ii) Dollar value of
     		       recommendations that
     		       were not agreed to by
     		       management. 	                                  0	                      0	                  0

     D.	 For which no management
     	 decision had been made by the
     	 end of the reporting period. 	                       35	           $15,267,842	          $5,344,221

     E. 	 For which no management
     	 decision was made within
     	 6 months of issuance. 	                              33	           $14,768,910	          $5,264,579




     *Unsupported costs are included in questioned costs.




48
                                                                               Appendix Five




Monetary Resolution Activities
Table II: Inspector General Reports With
Recommendations That Funds Be Put To Better Use
		                                          Number of Reports	    Dollar Value


A.	   For which no management
	     decision had been made by the
	     commencement of the reporting
	     period.	                                     15	           $16,053,568

B.	 Which were issued during the
	 reporting period. 	                                2	              $66,522

		       Total (A+B)	                              17	           $16,120,090

C.	 For which a management decision
	 was made during the reporting period. 	            3	            $904,545

	 (i)	 Dollar value of recommendations
		 that were agreed to by management. 	              3	            $904,545

	 (ii)	 Dollar value of recommendations
		 that were not agreed to by management. 	          0	                    0

D.	 For which no management decision
	 had been made by the end of the
	 reporting period. 	                              14	           $15,215,545

E.	 For which no management decision
	 was made within 6 months of issuance. 	          12	           $15,159,023




                                                                                           49
 Appendix Five




     Monetary Resolution Activities
     Table III: Inspector General Reports
     With Lost or Potential Additional Revenues

     		                                          Number of Reports	    Dollar Value


     A.	   For which no management
     	     decision had been made by
     	     the commencement of the
     	     reporting period.	                             5	          $40,528,928

     B.	 Which were issued during the
     	 reporting period. 	                                0	                    0

     		       Total (A+B)	                                5	          $40,528,928

     C.	 For which a management decision
     	 was made during the reporting period. 	            1	              $50,288

     	 (i)	 Dollar value of recommendations
     		 that were agreed to by management. 	              1	              $50,288

     	 (ii)	 Dollar value of recommendations
     		 that were not agreed to by management. 	          0	                    0

     D.	 For which no management decision
     	 had been made by the end of the
     	 reporting period. 	                                4	          $40,478,640

     E.	 For which no management decision
     	 was made within 6 months of issuance. 	            4	          $40,478,640




50
                                                                                 Appendix Five




Monetary Resolution Activities
Table IV: Inspector General Reports
With Wasted Funds

		                                          Number of Reports	    Dollar Value


A.	   For which no management
	     decision had been made by
	     the commencement of the
	     reporting period.	                             2	          $28,856,706

B.	 Which were issued during the
	 reporting period. 	                                0	                    0

		       Total (A+B)	                                2	          $28,856,706

C.	 For which a management decision
	 was made during the reporting period. 	            0	                    0

	 (i)	 Dollar value of recommendations
		 that were agreed to by management. 	              0	                    0

	 (ii)	 Dollar value of recommendations
		 that were not agreed to by management. 	          0	                    0

D.	 For which no management decision
	 had been made by the end of the
	 reporting period. 	                                2	          $28,856,706

E.	 For which no management decision
	 was made within 6 months of issuance. 	            2	          $28,856,706




                                                                                             51
                                                                 Back to Toc
 Appendix Six




                Summary of Reports Over 6 Months
                Old Pending Management Decisions
                This listing includes a summary of audit and evaluation reports that were more than 6
                months old on March 31, 2009, and still pending a management decision. It
                provides report number, title, issue date, and number of unresolved recommendations.


                Audits and Evaluations
                Bureau of Indian Affairs
                C-IN-BIA-0008-2007	             Flash Report - Bureau of Indian Affairs and Bureau of
                                                Indian Education: Schools in Need of Immediate
                                                Action (05/31/2007); 3 Recommendations.

                NM-IS-BIA-0002-2008	            Inspection of the Implementation of the Motor Ve-
                                                hicle Operation Policy, Bureau of Indian Affairs
                                                (07/31/2008); 6 Recommendations.

                NM-EV-BIE-0001-2008	            Evaluation of Controls to Prevent Violence at Bureau
                                                of Indian Education Operated Education Facilities
                                                (08/01/2008); 3 Recommendations.

                Minerals Management Service
                C-EV-MMS-0001-2008	             Minerals Management Service Royalty-In-Kind Oil
                                                Sales Process (05/30/2008); 2 Recommendations.

                Multi-Office Audits
                C-IN-MOA-0006-2007	             DOI’s Hurricane Rebuilding Efforts (09/03/2008);
                                                1 Recommendation.

                National Park Service
                X-IN-NPS-0017-2006	             Independent Auditors’ Report on the National Park
                                                Service’s Financial Statements for Fiscal Years 2006
                                                and 2005 (02/08/2007); 4 Recommendations.




52
                                                                                 Appendix Six




Office of Insular Affairs
P-GR-NMI-0003-2005	         Evaluation of Saipan Public Health Facility
                            Project: Oversight of Capital Improvement
                            Projects, Commonwealth of the Northern
                            Mariana Islands (06/08/2007);
                            1 Recommendation.

Office of the Secretary
X-IN-OSS-0016-2006	         Independent Auditors’ Report on the
                            Departmental Offices’ Financial Statements for
                            Fiscal Years 2006 and 2005 (02/05/2007);
                            2 Recommendations.

X-IN-OSS-0014-2007	         Independent Auditors’ Report on the Departmen-
                            tal Offices’ Financial Statements for Fiscal Years
                            2007 and 2006 (01/28/2008); 1 Recommendation.

W-EV-OSS-0006-2008	         Letter to Senator Baucus and Memorandum to
                            Secretary of the Interior on Recommendations
                            Stemming from Congressional Request Regarding
                            the Montana Fish and Wildlife Conservation Trust
                            (08/07/2008); 3 Recommendations.

U.S. Fish and Wildlife Service
X-IN-FWS-0020-2006	         Independent Auditors’ Report on the U.S. Fish
                            and Wildlife Service’s Financial Statements for
                            Fiscal Years 2006 and 2005 (08/14/2007);
                            2 Recommendations.

X-IN-FWS-0018-2007	         Independent Auditors’ Report on the U.S. Fish
                            and Wildlife Service Financial Statements for
                            Fiscal Years 2007 and 2006 (01/18/2008);
                            2 Recommendation.


Contracts and Grants
National Park Service
2000-E-0607	                Costs Billed By Harrison & Palmer, Inc., From
                            April 1, 1996, Through June 23, 1999, Under
                            National Park Service Contract
                            143CX300094906 (08/08/2000);
                            1 Recommendation.


                                                                                            53
 Appendix Six




                2000-E-0706	             Audit of Costs Billed by Southern Insulation,
                                         Inc., From November 21, 1994, Through June
                                         1, 1999, Under National Park Service Contract
                                         1443CX300094906 (09/29/2000);
                                         1 Recommendation.

                2001-E-0035	             Audit of Costs Billed by Callas Contractors,
                                         Inc., From January 1, 1997, Through June 1,
                                         1999, Under National Park Service Contract
                                         1443CX300094906 (11/07/2000);
                                         1 Recommendation.

                2001-E-0036	             Audit of Costs Billed by Capitol Mechanical Con-
                                         tractors, Inc., From January 1, 1997, Through June
                                         1, 1999, Under National Park Service Contract
                                         1443CX300094906 (11/07/2000);
                                         1 Recommendation.

                2001-E-0244	             Audit of Costs Billed by E.M.S. Consultants,
                                         Inc., From May 1, 1996, Through June 1,
                                         1999, Under National Park Service Contract
                                         1443CX300094906 (02/27/2001);
                                         1 Recommendation.

                2001-E-0336	             Audit of Costs Billed by JCM Control Systems,
                                         Inc. From January 1, 1994, Through July 16,
                                         1999, Under National Park Service Contract
                                         1443CX300094906 (04/23/2001);
                                         1 Recommendation.

                U.S. Fish and Wildlife Service
                R-GR-FWS-0029-2003	      U.S. Fish and Wildlife Service Federal Assistance
                                         Grants Administered by the State of Washington,
                                         Department of Fish and Wildlife, From
                                         July 1, 2000, Through June 30, 2002 (03/21/2004);
                                         1 Recommendation.

                R-GR-FWS-0025-2003	      U.S. Fish and Wildlife Service Federal Assistance
                                         Grants Administered by the State of New York,
                                         Department of Environmental Conservation,
                                         Division of Fish, Wildlife, and Marine Resources,
                                         From April 1, 2000, Through March 31, 2002
                                         (05/06/2004); 1 Recommendation.




54
                                                                              Appendix Six




R-GR-FWS-0014-2004	   U.S. Fish and Wildlife Service Federal Assis-
                      tance Grants Administered by the Common-
                      wealth of Puerto Rico, Department of Natural
                      and Environmental Resources, From July 1,
                      2001, Through June 30, 2003 (03/19/2005);
                      5 Recommendations.

R-GR-FWS-0008-2004	   U.S. Fish and Wildlife Service Federal
                      Assistance Grants Administered by the State of
                      Idaho, Department of Fish and Game, From
                      July 1, 2001, Through June 30, 2003
                      (09/30/2005); 15 Recommendations.

R-GR-FWS-0004-2005	   U.S. Fish and Wildlife Service Federal
                      Assistance Grants Administered by the State
                      of Illinois, Department of Natural Resources,
                      From July 1, 2002, Through June 30, 2004
                      (03/31/2006); 12 Recommendations.




                                                                      Photo BBrazil.




                                                                                         55
                                                              Back to Toc
 Appendix Seven




                  Summary of Reports Over 6 Months
                  Old Pending Corrective Action
                  This is a listing of audit and evaluation reports more than 6 months old with
                  management decisions for which corrective action has not been completed. It
                  provides report number, title, issue date, and the number of recommendations
                  without final corrective action. These audits and evaluations continue to be
                  monitored by the Focus Leader for Management Control and Audit Follow-up,
                  Assistant Secretary, Policy, Management, and Budget, for completion of
                  corrective action.

                  Bureau of Indian Affairs
                  2003-I-0055	                 Evaluation of the Bureau of Indian Affairs’ Process
                                               to Approve Tribal Gaming Revenue Allocation Plans
                                               (06/11/2003); 3 Recommendations.

                  X-IN-BIA-0006-2005	          Independent Auditors’ Report on the Bureau of Indian
                                               Affairs’ Financial Statements for Fiscal Years 2005
                                               and 2004 (12/20/2005); 1 Recommendation.

                  C-IN-BIA-0017-2005	          Bureau of Indian Affairs, Radio Communications
                                               Program (01/31/2007); 6 Recommendations.

                  X-IN-BIA-0008-2008	          Management Letter Concerning Issues Identified
                                               During the Audit of the Indian Affairs Financial
                                               Statements for Fiscal Years 2007 and 2006
                                               (02/21/2008); 1 Recommendation.

                  Bureau of Indian Education
                  Q-IN-BIA-0005-2007	          Bureau of Indian Education Background
                                               Investigations (04/25/2008); 3 Recommendations.

                  Bureau of Land Management
                  C-IN-BLM-0013-2005	          Public Safety Issues at the Saginaw Hill Property
                                               Bureau of Land Management (03/15/2007);
                                               1 Recommendation.	




56
                                                                           Appendix Seven




C-IN-BLM-0012-2007	     Flash Report - Environmental, Health and Safety
                        Issues at Bureau of Land Management Ridgecrest
                        Field Office Rand Mining District, CA
                        (09/12/2007); 2 Recommendations.

WR-IV-BLM-0003-2008	    Immediate Action Needed to Stop the
                        Inappropriate Use of Cooperative Agreements in
                        BLM’s Helium Program (08/19/2008);
                        5 Recommendations.

Bureau of Reclamation
1999-I-0133	            Audit Report on the Identification of Unneeded
                        Acquired Lands (12/21/1998); 1 Recommendation

Minerals Management Service
C-EV-MMS-0001-2008	     Minerals Management Service Royalty-In-Kind Oil
                        Sales Process (05/30/2008); 2 Recommendations.

Multi-Office Audits
E-IN-MOA-0008-2004	     Department of the Interior Workers’ Compensation
                        Program (05/09/2005); 2 Recommendations.

C-IN-MOA-0049-2004	     Department of the Interior Concessions Manage-
                        ment (06/13/2005); 1 Recommendation.

W-IN-MOA-0002-2005	     Hazardous Fuels Reduction Program,
                        Department of the Interior (04/17/2006);
                        1 Recommendation.

C-IN-MOA-0007-2005	     U.S. Department of the Interior Radio
                        Communications Program (01/30/2007);
                        7 Recommendations.

W-IN-MOA-0086-2004	     Proper Use of Cooperative Agreements Could
                        Improve Interior’s Initiatives for Collaborative
                        Partnerships (01/31/2007); 1 Recommendation.

W-IN-MOA-0008-2005	     Private Uses of Public Lands, National Park
                        Service and Bureau of Land Management
                        (04/10/2007); 6 Recommendations.	




                                                                                      57
 Appendix Seven




                  X-IN-MOA-0006-2008	     Management Letter Concerning Issues Identified
                                          During the Audit of the Department of the Interior
                                          Financial Statements for Fiscal Years 2007 and
                                          2006 (02/15/2008); 6 Recommendations.

                  C-IN-MOA-0011-2006	     Health and Safety Concerns at Department
                                          of the Interior’s Facilities (02/26/2008);
                                          6 Recommendations.

                  W-EV-MOI-0003-2008	     Interior Misstated Achievement of Small Busi-
                                          ness Goals by Including Fortune 500 Companies
                                          (07/1/2008); 1 Recommendation.

                  C-IN-MOA-0004-2007	     Abandoned Mine Lands in the Department of the
                                          Interior (07/24/2008); 9 Recommendations.

                  Y-EV-MOA-0003-2008	     Absent Immediate Action the Department of
                                          the Interior Faces Looming Leasing Crisis
                                          (07/31/2008); 3 Recommendations.

                  C-IN-MOA-0006-2007	     DOI’s Hurricane Rebuilding Efforts (09/30/2008);
                                          5 Recommendations.

                  National Park Service
                  1998-I-0406	            Follow-up of Recommendations Concerning
                                          Utility Rates Imposed by the National Park Service
                                          (04/15/1998); 5 Recommendations.

                  2002-I-0045	            Recreational Fee Demonstration Program -
                                          National Park Service and Bureau of Land
                                          Management (08/19/2002); 1 Recommendation.

                  P-IN-NPS-0105-2003	     National Park Service Management of Selected
                                          Grants in Hawaii (07/30/2004);
                                          2 Recommendations.

                  X-IN-NPS-0009-2005	     Independent Auditors’ Report on the National Park
                                          Service’s Financial Statements for Fiscal Years
                                          2005 and 2004 (12/21/2005); 2 Recommendations.

                  P-IN-NPS-0074-2004	     Hawaii Volcanoes National Park: Improved Opera-
                                          tions Should Enhance Stewardship and Visitor
                                          Experience (03/31/2006); 3 Recommendations.




58
                                                                             Appendix Seven




X-IN-NPS-0017-2006	       Independent Auditors’ Report on the National
                          Park Service Financial Statements for Fiscal
                          Years 2006 and 2005 (02/08/2007);
                          4 Recommendations.

X-IN-NPS-0005-2007	       Management Letter Concerning Issues Identi-
                          fied During the Audit of the National Park Ser-
                          vice Financial Statements for Fiscal Years 2006
                          and 2005 (03/01/2007); 4 Recommendations.

C-IN-NPS-0007-2007	       Flash Report - National Park Service: Hazard-
                          ous Condition of Yosemite’s Wawona Tunnel
                          Endangers Lives (06/20/2007);
                          1 Recommendation.

X-IN-NPS-0019-2007	       Independent Auditors’ Report on the National
                          Park Service Financial Statements for Fiscal
                          Years 2007 and 2006 (12/21/2007);
                          1 Recommendation.

Y-EV-NPS-0004-2008	       History Collection in Jeopardy at Harpers Ferry
                          Center (07/25/2008); 4 Recommendations.

Office of the Secretary
X-IN-OSS-0014-2007	       Independent Auditors’ Report on the Depart-
                          mental Offices Financial Statements for Fiscal
                          Years 2007 and 2006 (01/28/2008);
                          8 Recommendations.

X-IN-OSS-0007-2008	       Management Letter Concerning Issues Identi-
                          fied During the Audit of the Departmental Of-
                          fices Financial Statements for Fiscal Years 2007
                          and 2006 (06/18/2008); 6 Recommendations.

Office of the Special Trustee for Indian Affairs
Q-IN-OST-0002-2005 	      Independent Auditors’ Report on the Tribal and
                          Other Trust Funds and Individual Indian
                          Monies Trust Funds’ Financial Statements for
                          Fiscal Years 2005 and 2004, Managed by the
                          Office of the Special Trustee for American
                          Indians (11/22/2005); 2 Recommendations.




                                                                                        59
 Appendix Seven




                  U.S. Fish and Wildlife Service
                  1997-I-1305	             Audit Report on the Automated Law Enforce-
                                           ment System, U.S. Fish and Wildlife Service
                                           (09/30/1997); 1 Recommendation.

                  X-IN-FWS-0003-2006 	     Management Letter Concerning Issues Identified
                                           During the Audit of the U.S. Fish and Wildlife Ser-
                                           vice’s Financial Statements for Fiscal Years 2005
                                           and 2004 (02/27/2006); 2 Recommendations.

                  C-IN-FWS-0009-2007	      Flash Report: Fish and Wildlife Service, Jackson
                                           National Fish Hatchery In Need of Immediate
                                           Action (05/08/2007); 2 Recommendations.

                  X-IN-FWS-0020-2006	      Independent Auditors’ Report on the U.S. Fish and
                                           Wildlife Service’s Financial Statements for Fiscal
                                           Years 2006 and 2005 (08/14/2007);
                                           3 Recommendations.

                  X-IN-FWS-0018-2007	      Independent Auditors’ Report on the U.S. Fish and
                                           Wildlife Service Financial Statements for Fiscal
                                           Years 2007 and 2006 (01/18/2008);
                                           1 Recommendation.

                  X-IN-FWS-0005-2008	      Management Letter Concerning Issues Identified
                                           During the Audit of the U.S. Fish and Wildlife
                                           Service Financial Statements for Fiscal Years 2007
                                           and 2006 (01/28/2008); 1 Recommendation.




60
                                                                                   Back to Toc
                                        Appendix Seven




Overseeing mineral deposits of various kinds are
also included in the responsibilities of DOI agencies.




                                                         61
 Appendix Eight




                  Summary of Insular Area Reports
                  With Open Recommendations More
                  Than 6 Months Old
                  These Insular Area reports contain recommendations made specifically to Insular
                  Area governors and other Insular Area officials, who do not report to the
                  Secretary of the Interior and who are not subject to the policy, guidance, and
                  administrative oversight established by the Assistant Secretary, Policy,
                  Management and Budget.

                  Federated States of Micronesia
                  P-EV-FSM-0001-2007	          Kosrae State, Federated States of Micronesia:
                                               Property Accountability Process Needs to be
                                               Improved (10/17/2007); 5 Recommendations.

                  Northern Mariana Islands
                  P-GR-NMI-0003-2005	          Evaluation of Saipan Public Health Facility Project:
                                               Oversight of Capital Improvement Projects, Common-
                                               wealth of the Northern Mariana Islands (06/08/2007);
                                               4 Recommendations.

                  P-GR-NMI-0004-2005	          Evaluation of Office of Insular Affairs Oversight of
                                               Capital Improvement Projects, Commonwealth of the
                                               Northern Mariana Islands (06/08/2007);
                                               3 Recommendations.

                  U.S. Virgin Islands
                  V-IN-VIS-0004-2005	          Controls Over Video Lottery Terminal Operations,
                                               Government of the Virgin Islands (06/08/2007);
                                               2 Recommendations.

                  V-IN-VIS-0011-2006	          Collection of Outstanding Taxes and Fees, Government
                                               of the Virgin Islands (01/10/2008); 3 Recommendations.




62
                                                                            Appendix Eight




V-IN-VIS-0001-2007	   Administrative Functions, Roy Lester Schneider
                      Regional Medical Center, Government of the
                      Virgin Islands (07/28/2008);
                      4 Recommendations.




                                               A traditional flower of many Pacific Island
                                               communities, exchanged in greeting people.




                                                                                             63
                                                                Back to Toc
General Information



      Cross-References to the Inspector General Act
                                                                                                        Page
      Section 4(a)(2)           Review of Legislation and Regulations                                   N/A*

      Section 5(a)(1)           Significant Problems, Abuses, and Deficiencies                           1-37

      Section 5(a)(2)           Recommendations for Corrective Action With Respect to Significant        1-37
                                Problems, Abuses, and Deficiencies

      Section 5(a)(3)           Significant Recommendations From Agency’s Previous Reports on           56-60
                                Which Corrective Action Has Not Been Completed

      Section 5(a)(4)           Matters Referred to Prosecutive Authorities and Resulting Convictions     39

      Section 5(a)(5)           Matters Reported to the Head of the Agency                               N/A

      Section 5(a)(6)           Audit Reports Issued During the Reporting Period                        42-45

      Section 5(a)(7)           Summary of Significant Reports                                           1-37

      Section 5(a)(8)           Statistical Table: Questioned Costs                                       48

      Section 5(a)(9)           Statistical Table: Recommendations That Funds Be Put to Better Use         49

      Section 5(a)(10)          Summary of Audit Reports Issued Before the Commencement of the
                                Reporting Period for Which No Management Decision Has Been Made         52-55

      Section 5(a)(11)          Significant Revised Management Decisions Made
                                During the Reporting Period                                              N/A

      Section 5(a)(12)          Significant Management Decisions With Which
                                the Inspector General Is in Disagreement                                 N/A

      Section 5(a)(13)          Information Described Under Section 804(b) of the Federal Financial
                                Management Improvement Act of 1996                                       N/A




      *N/A: Not applicable to this reporting period




64
                                  General Information




      Contact Us


         By Mail
U.S. Department of the Interior
 Office of Inspector General
       1849 C St. NW
     Mail Stop 4428, MIB
   Washington, DC 20240




       By Internet
       www.doioig.gov



         By Phone
         202.208.4618


          By Fax
         202.208.6062




                                                    65
